HHS/OIG - Audit, "Review of Mississippi's Participation in Title IV-B, Subpart 2 of the Social Security Act, Promoting Safe and Stable Families for Fiscal Years 1994 through 1999 (A-06-01-00065)
Department of Health and Human
Services
Office of Inspector General -- AUDIT
"Review of Mississippi's Participation in Title
IV-B, Subpart 2 of the Social Security Act, Promoting Safe and Stable Families
for Fiscal Years 1994 through 1999," (A-06-01-00065)
September 21, 2001
Complete Text of Report is available in PDF format (848
kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our review of Mississippis
Division of Family and Childrens Services (DFCS) participation in
Title IV-B, Subpart 2 Promoting Safe and Stable Families Program in fiscal years
(FY) 1994 through 1999.  The objectives of our review were to determine:
(1) the reasons why DFCS did not use all Federal funds for the Promoting Safe
and Stable Families Program and (2) if DFCS met its cost sharing requirements.
The DFCS did not use $6,189,400 in grant awards from FYs 1994 through 1999 because
State funds were not available for matching. However, based on the information
provided by DFCS officials, we determined that DFCS met its 25 percent State
cost match requirement for the Federal funds it expended during FYs 1994 thrtough
1999.  The DFCS concurred in general with the results, validity and reasonableness
of the facts presented.